                                                   U.S. Department of Justice

                                                   Ronald C. Machen Jr.
                                                   United States Attorney for the
                                                   District of Columbia
                                                   Judiciary Center
                                                   555 Fourth St. N.W.
                                                   Washington, D.C. 20530


                                     PRESS RELEASE
FOR IMMEDIATE RELEASE                            For Information Contact:
Tuesday, April 29, 2014                          Public Affairs
                                                 (202) 252-6933
                                                 http://www.justice.gov/usao/dc/index.html

  Former Social Security Administration Employee Pleads Guilty
  To Taking Bribes in Return for Giving People Increased Benefits
                     -Admits Accepting Total of $54,662 From 13 People-

       WASHINGTON – Christopher Payton, a former specialist for the Social Security
Administration in Washington, D.C., pled guilty today to soliciting more than $50,000 in bribes
from Social Security recipients in return for providing them with extra, unauthorized benefits.

      The guilty plea was announced by U.S. Attorney Ronald C. Machen Jr. and Michael
McGill, Special Agent in Charge of the Philadelphia Field Division of the Social Security
Administration’s Office of the Inspector General.

         Payton, 46, of Mount Rainier, Md., pled guilty in the U.S. District Court for the District
of Columbia to one count of bribery. The Honorable Senior Judge Gladys Kessler scheduled
sentencing for July 16, 2014. The charge carries a statutory maximum of 15 years in prison and
financial penalties. Under federal sentencing guidelines, Payton faces a likely range of 30 to 37
months in prison and a fine of up to $60,000. The plea agreement calls for him to pay $54,662 in
restitution and an identical amount in a forfeiture money judgment.

        According to a statement of offense, signed by the defendant and the government, Payton
was a Social Insurance Specialist for the Social Security Administration’s Anacostia Office in
Southeast Washington. His duties included conducting interviews regarding eligibility for
benefits, authorizing or disallowing entitlement, and reviewing and authorizing Supplemental
Security Income. He had computerized access to the agency’s database.

         Between January and May of 2013, Payton met with 13 people as part of his
responsibilities at the agency. Upon meeting these individuals, Payton told them, in substance,
that if they gave him a tip, he would take care of them. After they agreed to his solicitation,
Payton caused retroactive Supplemental Security Income benefits to go into the individuals’
bank accounts. These retroactive payments were not properly authorized, and Payton knew that
the people receiving them were not entitled to the extra income.

       After the individuals began seeing increased retroactive benefits in their bank accounts,
they met with Payton throughout the Anacostia neighborhood and gave him payments. All told,
Payton received $54,662 in cash payments from the individuals for his actions.

        Payton’s activities came to light after someone reported his suspicious conduct. In
addition, authorities received information through a fraud hotline operated by the Social Security
Administration’s Office of the Inspector General. The public can report allegations of waste,
fraud, and abuse online at http://oig.ssa.gov/report or by phone at 1-800-269-0271.

        In announcing the plea, U.S. Attorney Machen and Special Agent in Charge McGill
praised the work of those who investigated the case from the Social Security Administration’s
Office of the Inspector General. They also acknowledged the efforts of those who handled the
case from the U.S. Attorney’s Office, including Paralegal Specialists Donna Galindo, Krishawn
Graham, and Angela Lawrence; Investigative Analyst Sharon Johnson, and former Paralegal
Specialist Shanna Hays. They expressed appreciation for the assistance provided by Trial
Attorney Edward P. Sullivan of the Department of Justice’s Public Integrity Section.

        Finally, they commended the work of Assistant U.S. Attorney Philip A. Selden, who is
prosecuting the case, and Assistant U.S. Attorney Diane Lucas, who is assisting with forfeiture
issues.

14-101

                                               ##
